                    National Science Foundation • Office of the Inspector General
                           4201 Wilson Boulevard, Arlington, Virginia 22230


MEMORANDUM


DATE:                 September 27, 2011

TO:                   Dr. Cora B. Marrett
                      Deputy Director, National Science Foundation

FROM:                 Dr. Brett M. Baker /s/
                      Assistant Inspector General for Audit

SUBJECT:              Audit of NSF’s Process for Achieving Priority Goals,
                      Report No. 11–02-008


Attached please find the final report of our audit of NSF’s priority goal process. The report
contains one finding on the need for NSF to maintain sufficient support for its priority goal
results. We have included NSF’s response as an appendix to the final report.

In accordance with Office of Management and Budget Circular A-50, Audit Followup, please
provide a written corrective action plan within 60 days to address the report recommendation.
This corrective action plan should detail specific actions and milestone dates.

We appreciate the courtesies and assistance provided by so many NSF staff during the audit. If
you have any questions, please contact Marie Maguire, Senior Audit Manager, at (703) 292-
5009.

Attachment

cc:    Allison Lerner
       Arthur K. Reilly
       Martha Rubenstein
       Joan Ferrini-Mundy
       Clifford Gabriel
       Michael Sieverts
       Amber Baum
       Marie Maguire
       Kelly Stefanko
Audit of NSF’s Process for
 Achieving Priority Goals



  National Science Foundation
  Office of Inspector General


      September 27, 2011
        OIG 11-2-008
Introduction
We conducted an audit to determine if NSF has a sufficient process in place to
coordinate, measure, monitor, and communicate progress toward its High Priority
Performance Goal (priority goal). The priority goal initiative required that agency heads
identify and commit to a limited number of priority goals with high value to the public.
The purpose of the initiative was to improve the performance and management of
federal government agencies.

NSF’s priority goal is to improve the education and training of an innovative science,
technology, engineering, and mathematics (STEM) workforce through evidence-based
approaches that include collection and analysis of performance data, program
evaluation, and other research. NSF committed to having evaluation and assessment
systems in place for at least six major STEM workforce development programs at the
graduate or postdoctoral level by the end of fiscal year (FY) 2011. Further, NSF stated
that it intended the work done to address its goal to serve as a foundation in developing
plans for a centralized NSF-wide evaluation capacity.

In June 2009, the Office of Management and Budget (OMB) requested that agencies
identify a limited number of high-priority performance goals as a first step toward
developing the President’s agenda for building a high-performing government. OMB
Circular A-11 provided additional guidance in requiring that each goal have a goal
leader who is held firmly accountable for achievement of the goal; priority goals should
be achieved without the need for new resources or legislation; progress toward the
priority goal should be integrated into the agency’s regular performance reporting
documents; agencies are to clearly identify the priority goal in their strategic plans and
annual performance plans; and agencies are expected to internally review their
performance on the priority goal on a quarterly basis.


Audit Results
Our audit determined that NSF has taken steps consistent with OMB guidance related
to coordinating, measuring, monitoring, and communicating progress towards achieving
its priority goal. NSF’s process included selection of a goal leader and meetings that
involved representatives from across the agency. NSF defined 16 milestones, or interim
steps, it planned to take by certain dates to achieve its goal. As of March 2011, NSF
reported that it had completed 14 milestones as planned. This was reported on the
website performance.gov. NSF stated that it expects to complete the final two
milestones -- continuing to expand meaning and application of the program evaluation
continuum and having at least six NSF STEM workforce development programs with
evaluation and assessment systems -- by its priority goal completion date of September
30, 2011.


                                             1
Through the priority goal process, NSF has taken steps to develop a framework for
evaluating and assessing its STEM programs. For example, in its FY 2011 budget
request, NSF included performance information, such as program goals and general
metrics, for at least six of its STEM programs at the graduate or postdoctoral level. In its
FY 2012 budget request, NSF identified goals and performance metrics for all 24 of
those programs. In addition, the FY 2012 metrics were more informative in identifying
what it would measure to evaluate programs’ success, data sources and methods to
evaluate the data obtained, and long term success and trend indicators.

However, the detail and documentation provided to support milestone accomplishment
was inadequate and did not provide for the intended transparency and
accountability. OMB guidance calls for priority goals with performance outcomes that
can be clearly evaluated. The lack of support makes it difficult for the agency to be
certain that appropriate actions are being taken to ensure that the goal is achieved and
precludes interested stakeholders from being able to independently verify the agency’s
progress.

It is too early to tell if the program and evaluation assessment framework developed
under the priority goal process will be used by program officers and managers in
decision making, reporting and management for their programs. We encourage NSF to
continue to devote high level, focused attention to developing, assessing, and using
evaluation and assessment systems for STEM education and workforce programs.


NSF Needs to Maintain Sufficient Support to Verify Results

The committee report accompanying the GPRA Modernization Act of 2010 states that
the key to improving performance accountability is to document the results agencies
have achieved compared to the goals they have established. OMB guidance 1 calls for
priority goals with performance outcomes that can be clearly evaluated, and are
quantifiable and measureable. Further, priority goals and results were to be posted on
performance.gov to provide for transparency. Transparency promotes accountability
and provides information for citizens about what their Government is doing.

NSF developed 16 milestones to track progress toward its priority goal. As of March 30,
2011, NSF reported that it had completed 14 of them. Per its action plan, NSF will
complete the final two milestones by September 30, 2011.

While NSF has made progress toward achieving its high priority goal, we found that it
did not always document key decisions made and actions taken to meet the milestones
set forth in its priority goal process. In fact, the detail NSF provided only allowed us to
verify that two milestones were completed as claimed. We recognize that NSF needed
a flexible process that would allow for experimentation and adjustment. However, the
1
 OMB M-09-20 Planning for the President’s Fiscal Year 2011 Budget and Performance Plans, June 11,
2009
                                                 2
lack of tangible, verifiable documentation makes it difficult for NSF to fully demonstrate
and communicate what the agency has done to move forward on its goal.

In some cases, there appears to be a gap between the actions recorded in the
milestones and the actions actually taken. While it may have been appropriate during
the course of the priority goal to alter course from the action plan established, NSF did
not always document these decisions by modifying its milestones or providing
justification for claiming completion for an accomplishment that did not measure up with
the stated target. While the actions included in many of the milestones conjured
expectation of a concrete and tangible action, the reported results were often narrative
and not supported by documentation that could be assessed and independently
evaluated.

One of the 16 milestones was to design a database with performance information that
could be shared across the agency. NSF referred to this as a performance
management information system and intended it to be a useful tool “to provide
meaningful evidence to impact program decisions,” and not “a compliance exercise.”
We expected to find a dynamic information system that would enable decision making
and action. However, in reporting that it completed this step, NSF stated its
methodology for this information system was “merging” data collected from the budget
and the logic model exercises. When we requested access to this database, NSF
provided an Excel spreadsheet with metrics and logic model information listed by
program. While a spreadsheet organizing data into columns and rows can contain
useful information, in our opinion, it does not have the rigor or decision supporting
capability of an information system. It is also not clear whether such a spreadsheet
would provide a sufficient basis for a centralized NSF-wide evaluation capacity—one of
the outcomes sought by NSF. Because NSF had neither modified the milestone nor
provided any justification for its use of a spreadsheet in place of a database, it is unclear
whether the intended results were achieved and what impact the use of a spreadsheet
instead of a database might have on NSF’s long-term goal of a centralized evaluation
capacity.

In another example, NSF stated that it met its milestone to assemble detailed
information on program monitoring systems in NSF workforce programs. This milestone
was intended to establish a baseline of what programs currently do to manage
performance as a step in moving towards developing an appropriate performance
management information system for each program. The memo to the file documenting
completion of this step stated that priority goal programs were "mobilized to write brief
overviews of their existing performance management systems.” These summaries were
discussed in a meeting of the full group working on the priority goal. However, there
was no formal written record documenting what was identified or learned from this
exercise and it is not clear if the data contained in the “brief overviews” was sufficient to
constitute the detailed information described in the milestone. Therefore we could not
confirm if and how the actions taken served their purpose in assisting NSF with
developing a performance management information system.

                                             3
It is vital that NSF maintain proper verifiable support for progress it reports towards its
goal. Otherwise, NSF is not attaining the transparency and accountability the priority
goal process was intended to provide. Without supporting documentation, NSF will also
not be able to provide credible evidence for stakeholders interested in verifying how
NSF was able to achieve its goal. Actions taken that are not recorded cannot be shared
with appropriate parties, referred to by future participants, or evaluated for
effectiveness.

At our request, NSF offered to provide additional documentation, including notes taken
by various meeting participants, to support milestone achievements. While these notes
could shed light on conversations related to the various milestones, by their nature they
reflect only one person’s perspective on the meeting and were not vetted or approved
as an accurate representation of the scope of the conversation by other attendees. As
such, their informal quality limits their utility in this context.


Conclusion and Recommendation
Based on our audit work, we concluded that NSF has taken steps consistent with OMB
guidance related to coordinating, measuring, monitoring, and communicating progress
towards achieving its priority goal. Through the priority goal process, NSF appears to
be moving towards a foundation of increased performance data-driven program
evaluation and assessment, as evidenced by improvements in both the quantity and
quality of the performance information included in its budget requests to Congress.
However, the detail and documentation provided to support milestone accomplishment
was inadequate and did not provide for the transparency and accountability intended of
priority goal processes. The limited support that NSF could provide to document its
progress diminishes its ability to determine whether efforts made in achieving its priority
goal are working efficiently and effectively.

As this priority goal process continues and future ones commence, we recommend that
NSF management ensure that it:
       a) develops and maintains competent, contemporaneous evidence to support the
       attainment of each milestone and goal it reports and enable independent
       verification of claimed results; and
        b) periodically reviews the support for the priority goal results, so any gaps in
       evidence for claimed results will be identified and addressed in a timely fashion.


Other Matters
We also offer the following suggestions for future priority goal processes:


                                             4
•   Set a compelling and ambitious goal. Priority goals were intended to be
    ‘‘stretch’’ goals that require an agency to exceed its normal level of performance
    with ambitious targets. OMB guidance states that priority goals should
    have "high direct value to the public.” The universe of NSF’s priority goal (STEM
    programs at the graduate or postdoctoral level) when established as part of the
    FY 2011 budget request, was approximately $548 million or 8% of NSF‘s $6.9
    billion budget. Of this priority goal universe, NSF’s goal target only committed it
    to having evaluation and assessment systems in place for at least six programs,
    or 25%, of those 25 programs.

•   Continue the practice of having the goal leader at the Assistant Director
    level. According to OMB guidance, the goal leader is held firmly accountable for
    achieving the priority goal. When established, the goal leader was a division
    director and an acting Executive Officer in the Directorate for Education & Human
    Resources. The position rose in prominence when the incumbent was promoted
    to Assistant Director while retaining the role of goal leader. The goal leader’s
    more senior position may have helped in gaining NSF-wide attention and
    participation for the priority goal initiative.

•   Establish a data driven and interactive format for future priority goal
    quarterly reviews. While NSF's core and full group priority goal meetings were
    interactive, its June 7, 2011 briefing of the Senior Management Roundtable,
    which NSF considers its first quarterly performance review as required by the
    GPRA Modernization Act of 2010, did not appear participative or solicitous of
    senior management dialogue, perspectives, or involvement as guidance
    demands. As opposed to an interactive review of progress achieved, it appeared
    to be a briefing on the priority goal process itself. NSF should capitalize on the
    opportunity to engage and enlist the assistance of its senior managers in goal
    achievement through priority goal quarterly reviews.




                                         5
Summary of Agency Response and OIG Comments
In its response, NSF concurred that additional steps could be taken to improve
transparency so results can be more readily verified. NSF stated that it is already taking
steps to assemble additional detail and document progress in achieving future priority
goal milestones in a transparent manner.

In following up on this report’s recommendation, we will request the documentation NSF
is maintaining to verify completion of the final two milestones of the current priority goal
process -- continuing to expand meaning and application of the program evaluation
continuum and having at least six NSF STEM workforce development programs with
evaluation and assessment systems. Per NSF’s action plan, completion of both of
these final two milestones is expected by September 30, 2011.

We have included NSF's response to this report in its entirety as Appendix A.




                                             6
Appendix A: Agency’s Response

                                     NATIONALSCIENCEFOUNOATlON
                                            4201 WIlSON BOUlEVARD
                                           ARLINGTON. VIRGINIA 22230



         -~
         .~
                                               Sept 21.20 11

   MEMORANDUM

   TO;               Ms. Allison C. Lerner
                     Inspector General

   f ROM;            Dr. Cora B. Marrett
                     Deputy Director

   SUBJECT:          Response to "Audit of NSf's Process for Achieving Priority Goals"

   Attached is the foundation's resp:;lnse to the OIG's official draft report " Audit of NSf's
   Process for AchieYirg Priority Goals." This response was developed in close
   consultation with Dr. Joan ferrini-Mundy who is the leader for this priority goal. Please
   let me know if you have any questions.




                                              c"'--            P• . ~
                                              Cora 6 . Marrett



   cc:    Subfa 5uresh
         Joan Ferrini-Mundy
         Martha Rubenstein
         Michael Sieverts
            Pamela O'NeH
            Amber Baum
          Oifford Gabriel
          Brett Baker
          K,,,,,,,
                 Scott
          Marie Maguire
          Kelly Stefanko
            Mary Lam
            Jessica Martin                         7
                                 NSF Response to OffICia l Draft Report
                           Audit of NSF's Proc~jor AchielliTlf1 PriorityGoo/s

NSF appreciated the opportunity to participate in t he DIG's audit of the pr()(esse'i to 'coordinate,
measure, monitor, and communicate progress toward its High Priority Performance Goal (prior ity
goal) ," NSF's STEM Workforce p riority goal, whkh was included in NSF's FV 2011 budget request, was
establishe<j by NSF in response to OM B's in~ial priority goa l activity. ~ OIG's al1ention to the
processes used to achieve the milestones provided a good opportun ity for NSF to take stoc k of how to
improve those processes.

While the aud itiound NSF·s process consisiem with OMS guidance, the OIG believes ad ditionat 5teps
could be taken by ~'Sf to improve transparency so result s can be more reiHIilv ~erified. NSF concurs and
is al re;td y taking st~ps to assemble additiona l detail and document progress in achieving future priority
goal milestones in a tram parent manner. In addit ion, NSF is clarifying evolving defi nitions of terms used
in milestones. Under the GPRA Moderni~ation Act of 2010, priority gool activitie s wilt continue for NSF
in fY 2012 and 2013 . Therefore, the (or>(lusion, recom mendation, and suggestions; provided in this
report are useful and timely, and will shape the quality of future processes related to Priority Goals.




                                                      8
Appendix B: Objective, Scope and Methodology
The objective of this audit was to examine the sufficiency of the process NSF has in
place to coordinate, measure, monitor, and communicate progress towards its priority
goal. The scope of our work focused exclusively on NSF’s priority goal process,
specifically, understanding how NSF sought to develop evaluation and assessment
systems for at least six major NSF STEM programs at the graduate or postdoctoral level
by the end of FY 2011. We conducted audit work from May through August 2011, at
NSF in Arlington, VA. We reviewed achievements NSF reported through the end of the
fiscal year’s second quarter (March 30, 2011).

In answering our objective, we reviewed NSF generated documentation supporting its
priority goal process, including internal discussions held, decisions made, and progress
reported. We corroborated this information through interviews with key participants in
NSF’s priority goal process, including the goal leader, goal lieutenants and current and
former members of the core working group. We also met with an OMB official involved
with the priority goal initiative government-wide and an OMB official specifically
knowledgeable of NSF and its goal. Finally, we attended and obtained federal agency,
OMB, and nonprofit presentations on best practices in implementing the priority goal
initiative and GPRA Modernization Act of 2010.

We inquired about NSF’s development and selection of its priority goal, milestones, and
measures; its communication and coordination of the goal agency-wide; data and
information supporting actions taken and reporting and quarterly review processes.

We reviewed NSF’s compliance with applicable provisions of pertinent laws and
guidance including:
   • A June 11, 2009 OMB memo requesting that agencies identify high-priority
      performance goals (what is now called the priority goal)
   • A June 25, 2010 OMB memo providing guidance to agencies on performance
      management activities
   • OMB Circular A-11, part 6 (July 2010)
   • Government Performance and Results Act (GPRA) of 1993
   • GPRA Modernization Act of 2010

We did not identify any instances of noncompliance with the portion of these laws and
guidance pertinent to our audit objectives.

Through interviewing NSF staff and reviewing documentation, we also obtained an
understanding of the management controls over NSF’s priority goal. We identified an
internal control deficiency, which we discuss in this report. However, we did not identify
any instances of fraud, illegal acts, violations, or abuse.


                                            9
During the course of this audit, the auditors did not receive, and therefore did not rely
on, information and data from NSF that resulted from computer processing. Therefore,
we did not test the reliability of NSF’s computer-processed data.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
finding and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusions based on our audit
objective.

We held an exit conference with NSF management on August 24, 2011.


Appendix C: Reason for Audit
The Administration and Congress have demonstrated increased interest in transparency
in government program performance. In 2009, the Administration announced an
approach for improving Government that was based on focusing resources on the
highest national priorities, the High Priority Performance Goal (priority goal). Federal
agencies were directed to measure, analyze and communicate performance information
in order to ensure that taxpayer investments are made in programs that work, rather
than on programs that are either not working or are duplicative. Through passage of the
GPRA Modernization Act of 2010, Congress confirmed its interest in regular and
systemic measurement and reporting of program performance, compared to pre-
established goals.

In addition, Members of the House Appropriations Subcommittee on Commerce,
Justice, Science, and Related Agencies asked the Inspector General questions at a
February 10, 2011 hearing about NSF’s ability to measure program performance and
outcomes).

We conducted this audit to follow up on these concerns by examining NSF’s process to
address its priority goal with the expectation that it would serve as the start of an OIG
body of knowledge on NSF performance management. Further, by shining a light on
NSF’s process of performance measures and assessment, the OIG intended to
encourage sustained attention to NSF’s priority goal efforts and provide real-time
suggestions for adjusting strategy, if appropriate, in order to assist NSF in achieving its
goal.




                                            10
Appendix D: Guidance on Priority Goals
In July 2010, OMB updated Circular A-11, Part 6 (Preparation and Submission of
Strategic Plans, Annual Performance Plans, and Annual Program Performance
Reports) to include information pertaining to priority goals, which stated that the
Administration’s performance management approach includes the development of High
Priority Performance Goals that are selected by agency leaders and which must be
achieved without the need for new resources or legislation within an 18-24 month
period. Each goal must have a goal leader who is held firmly accountable for the
achievement of the priority goal and progress toward the goal will be integrated into the
agency’s regular performance reporting documents. Quarterly reviews will be held
between agencies and OMB to discuss progress made and any actions to be taken to
identify shortfalls in performance. Agencies were asked to incorporate and clearly
identify their priority goals in their strategic plans, annual budgets and performance
plans, and annual reports, with priority goals a subset of the performance goals within
the broader framework of performance management for an agency. In January 2011,
the GPRA Modernization Act of 2010 codified the priority goal initiative that began a
year prior.




                                           11
